No.
IN THE
Supreme Court of the United States
JOSE LUIS SANCHEZ, JR.,
Petitioner,
Vv.
DONALD HOLBROOK,

Respondent.

 

Motion for Leave to Proceed in Forma Pauperis

 

Petitioner Jose Luis Sanchez, Jr. moves for leave to file his petition for a writ of certiorari
without prepayment of fees or costs and to proceed in forma pauperis. Petitioner was
represented before the district court and the Ninth Circuit Court of Appeals by counsel appointed

pursuant to 18 U.S.C. ยง 3006A. Counsel for Petitioner is admitted to practice before this Court.

Respectfully submitted this 12th day of March, 2021.

    
 

chard D. Wall
CJA Appointed Counsel for Petitioner
1604 W. Dean

Spokane, WA 99201

(509) 747-5646
